<html>
<title> - THE IMPORTANCE OF TRANSATLANTIC COOPERATION DURING THE COVID-19 PANDEMIC</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    THE IMPORTANCE OF TRANSATLANTIC COOPERATION DURING THE COVID-19 
                                PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2020

                               __________

                           Serial No. 116-132

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


       Available:  http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-927 PDF            WASHINGTON : 2021                        
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                                     

                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
THEODORE DEUTCH, Florida             ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island        JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas                FRANCIS ROONEY, Florida
DINA TITUS, Nevada                   BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania             GREG PENCE, Indiana
DAVID TRONE, Maryland                RON WRIGHT, Texas
JIM COSTA, California                MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas              TIM BURCHETT, Tennessee

                                       

                    Gabrielle Gould, Staff Director
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Froman, The Honorable Michael, Chairman, Mastercard Center for 
  Inclusive Growth...............................................     8
Donfried, Dr. Karen, President, German Marshall Fund of the 
  United States..................................................    20
Ellehuus, Ms. Rachel, Deputy Director, Europe Program, Center for 
  Strategic and International Studies............................    32
Carafano, Dr. James Jay, Vice President, Kathryn and Shelby 
  Cullom Davis Institute for National Security and Foreign 
  Policy, E.W. Richardson Fellow, The Heritage Foundation........    41

                                APPENDIX

Hearing Notice...................................................    73
Hearing Minutes..................................................    74
Hearing Attendance...............................................    75


    THE IMPORTANCE OF TRANSATLANTIC COOPERATION DURING THE COVID-19 
                                PANDEMIC

                         Tuesday, July 14, 2020

                          House of Representatives,
                   Subcommittee on Europe, Eurasia,
                       Energy, and the Environment,
                      Committee on Foreign Affairs,
                                                    Washington, DC,

    The subcommittee met, pursuant to notice, at 2:11 p.m., via 
Webex, Hon. William R. Keating(chairman of the subcommittee) 
presiding.
    Mr. Keating. The House Foreign Affairs subcommittee will 
come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point, and all members will have 
5 days to submit statements, extraneous materials, and 
questions for the record subject to the length limitations in 
the rules. To insert something into the record, please have 
your staff email the previously mentioned address or contact 
full committee staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair.
    Members are responsible for muting and unmuting themselves, 
and please remember to mute yourself after you have finished 
speaking. Consistent with House Res. 965, the accompanying 
regulations, staff will only mute members and witnesses as 
appropriate when they are not under recognition to eliminate 
background noise.
    I see that we have a quorum present. I really thank all of 
you. This has been the third hearing of this subcommittee in a 
week, all very well-received.
    And I will now recognize myself for opening remarks.
    Pursuant to notice, we are holding the hearing to discuss 
the importance of transatlantic cooperation during the COVID-19 
pandemic.
    We are tragically on our way to 600,000 deaths from COVID-
19 worldwide during what has been the most significant upheaval 
in global security and stability since World War II. Everyone's 
life has changed dramatically. Hundreds of thousands of 
families are mourning the loss of loved ones. I have six 
friends who have passed away. Millions have lost their job. 
Businesses have gone under. Our most vulnerable have been 
disproportionately impacted, whether frontline and healthcare 
workers, minority communities, victims of domestic violence, 
among many others.
    Further serious issues we face domestically and 
internationally were not put on hold during this crisis. Last 
month, a call for equality echoed around the globe. The murder 
of George Floyd sparked a movement calling us to urgently 
address systemic racism and the senseless killing of black and 
brown people here in the United States, Europe, and around the 
world. These issues cannot wait until the pandemic is over. And 
we, along with the democracies in Europe, must protect the 
fundamental right to exercise those core freedoms while also 
managing the spread of disease.
    Internationally, threats from our adversaries have not 
abated. Last week, this committee covered in depth the threats 
we face from the Kremlin after reports broke late last month 
that the Russian GRU put bounties on American troops.
    We also have unprecedented times that we are dealing with 
communities around the world turning to their governments to 
make incredibly difficult decisions. At the local level, as 
with all of you here, I felt this in my own district. We have 
worked tirelessly to untangle supply-chain issues, help 
individuals navigate pandemic-unemployment issues, fight for 
small-business loans for those hit by the economic fallout from 
the pandemic. And we field questions from schools and 
businesses wondering when they should open up safely, how to do 
it, what guidance is available to them.
    In this committee and in the Armed Services Committee, on 
which I share, we watch as dictators and authoritarian 
governments, like Hungary and Poland, have used this pandemic 
as an opportunity to consolidate power and sow great 
instability.
    The challenges we face today are the most complicated, 
heartbreaking, urgent challenges that I have seen in my 
lifetime. We need every strength and every resource we can. And 
we have to work together in doing so, which brings us to the 
focus of the hearing today.
    It is reckless, unnecessary, and ultimately futile to do 
this alone. This is the time to really drop all barriers we 
have and to cooperate. Because if a lab in the U.K. is close to 
a vaccine and a lab here in the U.S. has that missing piece, we 
cannot wait for them both to figure it out on their own. 
Because if a school system in Germany has learned that their 
method of sending children back to school is or is not working, 
I want the school district in my hometown to know whether that 
works or whether it is not and if they could utilize that 
information.
    That is how we save as many lives as possible, because that 
is our number-one priority right now. We all want to go back to 
normal in our lives, but for what cost? How many thousands of 
lives? Our best option for moving forward is to lead with the 
best information and the best solutions available.
    Unfortunately, that is not the theme we have seen from 
President Trump's Administration. From pulling the United 
States out of the World Health Organization, the Paris climate 
accord, cutting back on the European Deterrence Initiative, 
taking a quarter of our troops--or signaling that you will take 
a quarter of our troops out of Germany, to signaling a go-it-
alone approach on vaccines, these are not the decisions that 
will make us safer in the short term or the long term.
    No one has all the answers; no one has all the resources. 
This pandemic is just too big for any one country, as great as 
it may be. And, you know, the virus knows no borders. Americans 
deserve the best information, the best solutions from their 
government. And if those come from cooperation with our closest 
allies and partners, including Europe, which at the present 
time is experiencing some success in trying to control this 
virus, then we need to do everything in our power to work 
together on this.
    So I would like to thank our esteemed panel. I would like 
to have discussions I know that will surface around what we can 
do, discussions on tariffs, on pharmaceuticals, on working 
together for PPE supply-chain issues, coordination, coupling 
this coordinated approach with our efforts at self-sufficiency, 
not limiting ourselves to a nationalistic approach.
    So, I gather today to come forward, and I now yield to my 
ranking member for an opening statement.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And to all the witnesses, thank you for being here today.
    Let me just say, you know, I think the very first thing we 
can do is recognize the role that China has played in this. 
Unfortunately, even that seems to be partisan now, as I have, 
you know, friends that say that China is a distraction from the 
real issue, et cetera. We have to recognize their role at the 
beginning of this. And I think if we can get to that without 
trying to see it as an opportunity to declare racism or use 
political points, we can solve this problem together, as 
Republicans, as Democrats, and also as Americans, with our 
counterparts across the sea.
    So, again, thank you, Chairman, for calling this hearing.
    The EU and NATO, they are not just allies; they are our 
most important allies. And we all understand that strong 
alliances protect us from aggressors and guard our shared 
values. Now, the alliance must adapt to continue to face the 
threat brought on by the COVID pandemic.
    I believe that the calls for the United States to retreat 
from our global obligations are dangerous. The U.S. cannot face 
this challenge alone. We must rely on the relationships we have 
built over the past decade or more, past decades, to defeat 
this pandemic.
    While cooperation sometimes is difficult, it has shown that 
that transatlantic relationship is strong. Because of our 
alliances, our Nationhas repatriated hundreds of thousands of 
citizens to their home countries, built nearly 100 field 
hospitals, supplied over 25,000 beds, and deployed thousands of 
medical personnel to help those countries that were hit the 
hardest. Last of all, as the world faced a shortage of 
lifesaving ventilators, the United States began shipping them 
to our European allies, including France, Spain, and Italy.
    Could more be done? Absolutely. We must all learn from our 
past mistakes so that we can contain and better respond to 
future pandemics.
    We must also work together to pull ourselves out of the 
current economic environment that we find ourselves in. Now, 
more than ever, the U.S. and the EU need to cooperate on free 
trade to recover from this pandemic. The U.S. and the European 
Union are the world's two largest economies. Closer trade 
cooperation will be critical in recovering from this, while 
pushing back against China's debt diplomacy. Projects like the 
Three Seas Initiative could not only be a game-changer for 
Europe's energy markets but would provide an avenue for 
stronger U.S.-EU cooperation.
    As this pandemic spread, we quickly learned the many 
lessons, like the dangers of centralized supply chains in 
China. To better respond to future threats, we have to 
diversify supply chains by bringing some of those jobs home. 
However, it would be irresponsible to believe that we can bring 
all of them back into the United States. So, instead of leaving 
them in China, we should incentivize closer cooperation within 
our hemisphere and Europe.
    Let us not forget that the Chinese Communist Party silenced 
doctors, hid the virus until it was too late, and tried to 
cutoff PPE from reaching European and American markets. It 
bears repeating again. Additionally, the CCP has tried to 
strain the U.S.-EU relationship through disinformation 
campaigns. Luckily, last month, the EU Commission finally 
acknowledged the threat posed by the communist regime.
    Finding a cure to COVID-19 is a national priority for every 
nation around the world, but that is why close U.S.-EU 
collaboration, like the work being done between Pfizer and 
Germany's BioNTech, will be critical in developing the drugs 
needed to reopen our economies. The West is racing to find a 
cure; the CCP is racing to steal that cure.
    Last, we clearly need leadership of the World Health 
Organization. However, if we want to bring about change at the 
WHO, we should be at the table. Walking away, we cede our 
ability to shape this body to the Chinese, who are the reason 
that we are holding this hearing today.
    I will say, however, that the WHO needs to be held 
accountable to the fact that they ignored the pandemic at the 
beginning. The head of the WHO was the tie-breaking vote 
against declaring this a pandemic. We now know that there was 
close discussion with the Chinese Communist Party, and we know 
that they ignored advice from Taiwan because of their belief 
that Taiwan should not be recognized as an independent nation.
    Let's be clear: Taiwan is an independent nation, and China, 
the Chinese Communist Party specifically, is not a friend and, 
no matter how much money they give to the WHO or the United 
Nations, do not have the world's interests at heart. So, as 
much as we may criticize the United States or any other 
country, I think to compare that in any way to the pure evil of 
the Chinese Communist Party would be apples and oranges.
    So, with that, Mr. Chairman, thank you for holding this 
hearing. Thank you to the witnesses. And I will yield back the 
balance of my time.
    Mr. Keating. I thank the ranking member and share his 
comments that both of our opening statements made and the real 
fact that Europe and the U.S. are both facing great challenges 
but that we also have within these challenges the chances for 
greater opportunity.
    And along those lines, we have an extraordinary list of 
people here, each bringing their own perspective, each an 
important perspective, to how we can look at these challenges, 
meet them together, as we did with SARS and Ebola, but also to 
learn from each other in the process and to talk about areas 
where there can be greater cooperation that can really spawn 
from our common threat with this virus.
    Ambassador Michael Froman is the vice chairman and 
president of strategic growth at Mastercard. He is the former 
United States Trade Representative, former Assistant to the 
President, and former Deputy National Security Advisor for 
International Economic Affairs.
    Dr. Karen Donfried is president of the German Marshall 
Fund. She is a former Special Assistant to the President and 
Former Senior Director for European Affairs at the National 
Security Council.
    Ms. Rachel Ellehuus is deputy director of the European 
Program at the Center for Strategic and International Studies. 
She is the former Principal Director for European and NATO 
Policy in the Office of the Secretary of Defense at the 
Department of Defense.
    Dr. James Jay Carafano is the vice president of the Kathryn 
and Shelby Cullom Davis Institute for National Security and 
Foreign Policy and an E.W. Richardson fellow at The Heritage 
Foundation.
    I will now recognize the witnesses for 5 minutes. And, 
without objection, your prepared written statement will be made 
part of the record.
    First, Ambassador Froman, you are now recognized for your 
opening statement.

STATEMENT OF THE HONORABLE MICHAEL FROMAN, CHAIRMAN, MASTERCARD 
                  CENTER FOR INCLUSIVE GROWTH

    Mr. Froman. Well, thank you, and good afternoon, Chairman 
Keating, Ranking Member Kinzinger, and members of subcommittee. 
It is good to see many of you again.
    As the chairman said, my name is Mike Froman. I am the vice 
chair and president of strategic growth at Mastercard, former 
U.S. Trade Representative and Deputy National Security Advisor. 
And it is a pleasure to appear here to provide Mastercard's 
perspective on the importance of transatlantic cooperation 
during and after the COVID-19 pandemic.
    As all of you know, Mastercard is a global technology 
company in the payment sector which connects consumers, 
financial institutions, merchants, governments, and other 
organizations and enables them to use a trusted network to make 
electronic forms of payment safely and securely and engage in a 
wide range of transactions in the digital economy.
    We also provide an array of information services and 
cybersecurity tools, as well as solutions for digital identity 
to ensure that people are who they say they are online.
    We process transactions in over 150 currencies and 200 
countries and territories, making us the most widely accepted 
payment brand in the world.
    And as part of our longstanding commitment to inclusive 
growth, Mastercard has joined the crucial effort to combat 
COVID-19. Among other actions, we have committed $250 million 
of financial support, products, services, and technology over 
the next 5 years to support the vitality of small businesses 
and the financial security of their workers.
    We have also committed tens of millions of dollars in 
emergency grants to address the immediate needs of communities 
in which we operate and to help rebuild the economy in light of 
the crisis.
    And, very importantly, we have committed $25 million and 
worked with the Gates Foundation and Wellcome in the U.K. to 
establish the COVID-19 Therapeutics Accelerator, which seeks to 
expedite the discovery, development, manufacture, and 
distribution of treatments and diagnostics to address COVID 
worldwide. That effort has now attracted more than $300 million 
of support from the U.K. Government and philanthropies on both 
sides of the Atlantic.
    And I mention these efforts because they underscore the 
importance of both transatlantic cooperation and public-private 
partnerships in the COVID-19 era. To combat both the health and 
the economic effects of COVID-19, it is going to take a 
concerted effort of both the private and the public sector here 
and abroad, including with our partners in Europe.
    Together, the U.S. and Europe have built an integrated, 
rules-based global economy, resulting in decades of 
unprecedented and peaceful growth. The pandemic has shined a 
bright light on the need to work together to address the major 
challenges facing that economy.
    Let me start with China. The United States and Europe share 
a common objective in determining how best to integrate an 
economy as large and important as China's into the rules-based 
system. That requires that we promote consistent and 
enforceable global rules pertaining to policies that mandate or 
encourage noncommercial technology transfer, address the impact 
of State-owned enterprises and the use of State subsidies, 
protect intellectual property rights, and ensure fair market 
access.
    Next, the maintaining and development of global standards, 
particularly with regard to new technology, is a critical area 
for transatlantic cooperation. The world has spent the better 
part of a century designing standards to facilitate global 
commerce, but today we see a rising trend of nations advancing 
localization requirements, including those that prohibit the 
transfer of data across borders, imposing technical standards 
that preclude competition, and promoting local monopolies. We 
cannot fully achieve the benefits of global growth in an 
archipelago world where every country operates as an island.
    We also need to work together to update the global trading 
system, which has not kept pace with the evolution of the 
global economy. For example, no economic sector could benefit 
more from rules that facilitate trade than the services sector. 
According to WTO, services account for about two-thirds of 
global value-added trade. They account for four out of five 
jobs in the United States. Yet this is a sector where trade 
rules are the weakest. As strong services economies, the U.S., 
U.K., and EU have a common interest in doing better, including 
by advancing our negotiation of an e-commerce agreement.
    With respect to WTO reform, there are a number of potential 
areas for transatlantic cooperation. The U.S. and our European 
allies generally agree that the WTO must develop evidence-based 
criteria for determining which country is developed and 
developing and, therefore, what level of obligation they are 
held to.
    Our governments also agree on the need to strengthen WTO 
rules on industrial subsidies. We need to ensure that WTO 
members promptly and comprehensively notify their subsidies to 
the WTO. And we need rules to address subsidies channeled 
through State-owned enterprises.
    Finally, the United States, U.K., and EU should be able to 
work together to develop and implement reforms that would 
ensure that the WTO dispute settlement system functions and 
does so consistent with its mandate.
    A comprehensive U.S.-U.K. FTA could potentially provide the 
United States with an opportunity to develop new approaches to 
trade, including with respect to digital trade, financial 
services, and emerging technologies, with a like-minded ally 
who plays a pivotal role in the global economy.
    Finally, let me say a word about two issues that have the 
potential to constrain transatlantic cooperation: the 
unilateral imposition of a digital services tax and sanctions.
    There are certainly circumstances that warrant the 
imposition of economic sanctions. That said, weaponizing 
finance through the imposition of broad-based, unilateral 
sanctions runs the risk of incentivizing others to develop 
alternative mechanisms for conducting international trade and 
clearing transactions.
    Such sanctions have the potential for creating unintended, 
enduring, and broad-ranging consequences for the centrality of 
the U.S. dollar, dollar-based institutions, and payment 
networks, far beyond the specific country being sanctioned.
    For these reasons, whenever sanctions are on the table, the 
U.S. Government should consider a targeted, tailored approach, 
working wherever possible with allies like the EU, which would 
strengthen the action while minimizing the risk of unintended 
consequences.
    I appreciate the opportunity to share our views on these 
issues with the subcommittee. Thank you for the time.
    [The prepared statement of Mr. Froman follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Kinzinger. You are muted.
    Mr. Keating. I was muted during that myself. I was just 
going to introduce Dr. Donfried and say, I will let you know, 
in case you do not have a timer in front of you on your screen, 
roughly when the 5 minutes is up.
    Dr. Donfried.

  STATEMENT OF DR. KAREN DONFRIED, PRESIDENT, GERMAN MARSHALL 
                   FUND OF THE UNITED STATES

    Dr. Donfried. Thanks so much, Chairman Keating, Ranking 
Member Kinzinger, and other members of the committee. It is 
wonderful to have the opportunity to address the importance of 
transatlantic cooperation during the pandemic.
    The views I express are mine alone, not those of the German 
Marshall Fund.
    Allies matter. They especially matter when times are tough. 
And these are tough times.
    Unfortunately, as the pandemic confronted Americans and 
Europeans, rather than boosting cooperation, the pandemic 
exposed just how bad relations have gotten. This fraying of 
transatlantic ties reflects years of disagreements over defense 
spending, trade, technology, and much more.
    Nonetheless, the pandemic should spur us to move beyond 
ongoing disputes and focus on forging cooperative responses. I 
would like to highlight three opportunities.
    First, the U.S. and Europe should cooperate on ensuring 
reliable supplies of PPE, personal protective equipment, and 
developing a vaccine, as both the chairman and ranking member 
have suggested.
    There are calls on both sides of the Atlantic to no longer 
rely on other countries for PPE. U.S. interests will be best 
served, however, if we aim not for strict self-sufficiency but 
for broad resilience by implementing existing plans for 
stockpiling, encouraging diversity of supply, and keeping trade 
free of barriers. That goal could be best achieved by 
cooperating with our closest allies to build more integrated 
supply chains across the transatlantic space to ensure that 
neither the United States nor our European allies are dependent 
on critical supplies from China or Russia.
    The race to develop a vaccine illustrates a similar tension 
between the impulse to withdraw from the world and the impulse 
to cooperate with like-minded countries. The competitor of the 
United States and Europe in the vaccine space is China, and we 
need to foster cooperation on the vaccine between the U.S. and 
Europe to allow for more effective competition.
    Second, the U.S. and Europe should cooperate to provide 
reliable information to our citizens during the pandemic. Facts 
may be stubborn things, but the World Health Organization has 
warned about an ``infodemic'' of false information about the 
coronavirus.
    GMF analyzed outlets sharing false content and developed a 
policy roadmap on how to combat the ``infodemic.'' It is useful 
not only for U.S. policymakers but also as a basis for a 
transatlantic policy dialog given the shared interest in 
safeguarding the information ecosystem.
    GMF's Alliance for Securing Democracy is tracking Chinese 
and Russian State-based messaging, which shows how the pandemic 
has spawned an epidemic of online disinformation. Congress has 
a key role to play on drafting legislation to combat 
disinformation, and we can learn valuable lessons on how Europe 
is responding.
    One important arrow in our quiver to combat both 
misinformation and disinformation has been the federally funded 
media entities, including Radio Free Europe/Radio Liberty, 
overseen by the U.S. Agency for Global Media. The Agency's new 
CEO set off a firestorm of controversy when he immediately took 
action to fire top executives and remove the boards of the 
constituent entities last month. In Congress, bipartisan 
concern has been expressed in both chambers, including by this 
committee.
    Chairman Keating, thank you for your leadership and 
bipartisan efforts in support of U.S. international 
broadcasting to ensure individuals living in closed systems can 
access outside information.
    Third, we need transatlantic cooperation to meet the 
challenge of China. Chinais a commercial partner and rival as 
well as a political adversary of the United States and Europe. 
Given this multifaceted relationship, both sides of the 
Atlantic are struggling with how to manage China's rise and the 
accompanying challenges.
    Unfortunately, the United States and Europe have largely 
addressed these challenges separately. During the initial part 
of the coronavirus outbreak, both Europe and the United States 
turned inward, putting in place export bans and tariffs on 
medical equipment. All of our countries were slow to help each 
other.
    China was particularly quick to exploit the vacuum created 
by this harsh transatlantic reality, shipping needed medical 
equipment. GMF mapped China's assistance to 27 countries across 
Europe and found that the aid reflected national and economic 
interests, not simply humanitarian impulses.
    A recent public opinion survey, ``Transatlantic Trends,'' 
produced by GMF and partners, shows how Americans, French, and 
Germans see China's influence increasing but also how they see 
China's influence as ever more negative.
    These public attitudes match the transatlantic conversation 
among both EU and U.S. government officials, who now 
acknowledge that the two sides need to do more together on the 
China challenge. I believe a congressional-European Parliament 
dialog would help establish a common transatlantic perspective 
on China.
    To conclude, these proposed initiatives are one way to 
express transatlantic solidarity to meet the specific 
challenges of this pandemic, and to position the United States 
and Europe for a post-COVID-19 world marked by great-power 
competition. It is in our shared interest to face the current 
reality of COVID-19 together.
    Thank you.
    [The prepared statement of Dr. Donfried follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Mr. Keating. Thank you.
    And now the chair recognizes Ms. Ellehuus.

STATEMENT OF RACHEL ELLEHUUS, DEPUTY DIRECTOR, EUROPE PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Ellehuus. Perfect pronunciation, sir. Thank you.
    Mr. Keating. Thank you.
    Ms. Ellehuus. Chairman Keating, Ranking Member Kinzinger, 
and distinguished members of the subcommittee, thank you for 
opportunity to appear before you today.
    These are tough times for our country, but I have no doubt 
that we are stronger when we work together as a Nation and with 
our allies and partners. Our European allies and partners are 
vital to the U.S. economic welfare and national security. 
Whether we are safeguarding an open and fair trade system, 
deterring our adversaries, or assisting one another in 
counterterrorism and law enforcement operations, our European 
allies and partners magnify U.S. reach, power, and legitimacy 
around the globe.
    The importance of this cooperation is even more critical 
when it comes to transnational threats such as COVID-19. Much 
like climate change, the virus does not respect national 
borders. Equally, it cannot be managed by any one country or 
organization alone.
    In the early days of the crisis, the immediate instinct was 
for every nation to act for itself, yet the imperative of a 
coordinated approach quickly materialized.
    NATO sprung into action. It used its Euro-Atlantic Disaster 
Response Coordination Cell to coordinate requests for and 
offers of assistance from allies and partners, matching donors 
and providers, and drawing on its transport capabilities to 
move the materials.
    The European Union, which has no mandate for public health, 
found ways to assist its member-States with coordination and 
funding. The Commission, for example, is pooling information 
from all EU member-States regarding each country's opening 
status, levels of risk, health requirements, and numbers of 
cases and death. The EU has also played an important funding 
role, both on funding a vaccine and treatment for COVID-19, to 
a pilot program to support development of innovations to tackle 
the virus.
    Unfortunately, what is still lacking, despite some 
improvements of late, is U.S. leadership. The current 
administration has not assumed the global leadership role that 
we saw traditionally played by George Bush during the AIDS and 
SARS crisis and President Obama during the H1N1, Zika, and 
Ebola epidemics, where the U.S. rallied countries to mount an 
international, coordinated response. Our competitive, go-it-
alone approach to handling the pandemic will have costs with 
our allies.
    The President's unilateral announcement in March of a 
travel ban against 26 countries occurred without prior 
consultation with the EU. More recently, we declined to 
participate in various international coalitions that are 
pooling resources and risk in the global race to develop a 
vaccine.
    The Administration has also shown little interest in 
assisting developing countries, having failed to spend most of 
the $1.6 billion in emergency assistance that Congress 
allocated in March.
    Equally troubling, the U.S. approach to the pandemic has 
become a part of a broader geopolitical competition with China, 
causing paralysis in the Security Council. Rather than working 
with our allies and partners to hold the WHO accountable and 
demand a more effective response, the Administration 
precipitously halted funding to the WHO and announced our 
intent to withdraw from the organization at a critical time.
    Shocked, yet not surprised, our allies and partners see 
this as a continuation of our habit of unilaterally withdrawing 
from international commitments, like the IMF Treaty, the Paris 
climate accords, and the Treaty on Open Skies.
    Meanwhile, security and defense challenges have not 
subsided. NATO has seen an uptick in cyber attacks and 
disinformation during the pandemic. Early in the pandemic, 
Russian media falsely suggested that a British facility created 
the coronavirus and deliberately planted it in China. 
Subsequent disinformation efforts blamed the source of the 
outbreak on U.S. and European elites and its spread on the U.S. 
military. Since January, the EU's External Action Service has 
logged more than 110 cases of Russian disinformation.
    Russia is also pushing boundaries on the conventional 
front. Three times in the week of March 7, they flew their 
strategic bombers over the Barents, Norwegian, and North Seas. 
While the jets were promptly met by NATO forces, it is clear 
that Russia hoped to take advantage of a less contested 
airspace to probe further south than in the past.
    In light of these provocations, it is vital the U.S. 
maintain its presence in Europe and NATO continue to reinforce 
its deterrence and defense posture. The investments enabled by 
the European Deterrence Initiative--and I would like to thank 
Congress for its consistent support in this regard--ensure that 
NATO is ready to deter and defend against the full range of 
threats.
    Sustaining this progress will not be easy. Prior to the 
pandemic, 2020 was on track to be the sixth consecutive year of 
growth in NATO defense spending. And while NATO's defense 
budgets are likely to remain stable in the near term, the 
economic damage created by COVID-19 will create downward 
pressure on defense spending in the near term--in the medium 
term.
    Finally, a note on China. The pandemic has moved Europe 
closer to the U.S. view on China. Moreover, disinformation 
efforts by China to cover up and deflect blame for the pandemic 
have exposed its authoritarian tactics and raised questions 
about its motives. The recent U.K. decision to reduce Huawei's 
access to the U.K. market may be a reflection of this.
    In addition to NATO's ongoing discussions for standards of 
communications and critical infrastructure, the U.S. and EU 
must work together on a transatlantic approach to align 
standards and rules--for example, with regard to foreign 
acquisitions, emerging technologies, and supply chain 
resilience.
    With that, I will close and thank you for your time and the 
honor of joining you today.
    [The prepared statement of Ms. Ellehuus follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
    
    Staff. Sir, you are muted.
    Mr. Keating. You know, remember in the beginning they said 
they would keep my unmuting on? But that is not true.
    The chair recognizes Dr. Carafano, and I hope he has 
overcome some of the technical issues that he was dealing with.
    Dr. Carafano.
    He may not have. We will give him a few minutes just to see 
if that can be rectified. If not, we will move forward to some 
questions that we might have.
    Let me get through the introductions, and if Dr. Carafano 
comes in in the next minute or two, we will put him on.
    I will recognize members for 5 minutes each, and, pursuant 
to House rules, all time yielded is for the purposes of 
questioning our witnesses.
    Because of the virtual format of this hearing, I will 
recognize members of the committee by seniority, not 
necessarily when they came on, and I will alternate between 
Democrats and Republicans. If you miss your turn, let our staff 
know right away, and we will circle back to you.
    If you seek recognition, you must unmute your microphone, 
something that I have learned a couple of times already, and 
address the chair verbally.
    I will now start--quickly, I will see, Dr. Carafano, are 
you back?
    Evidently not. So I will recognize myself for questions.
    Prior to COVID-19 affecting both Europe and the U.S., the 
relationships had frayed, the tensions were greater, even 
though we had common challenges, particularly from China and 
from Russia.
    I always put into perspective that members of parliament, 
elected officials in Europe, just like ourselves, have 
constituencies. They are answerable to those. So it is 
important to know what is happening with those constituencies. 
And one of the things that I did notice is, the early polls 
showed a great unfavorability with the United States. And that 
clearly would affect members of parliament.
    However, recent polls have indicated in the midst of this 
crisis that people in Europe were asked who would they like to 
lead efforts dealing with this outside of their own countries, 
and the majority of those people said the United States. So 
this is clearly an opportunity for us right now to go back and 
strengthen this transatlantic relationship at a time of crisis.
    I would just like to quickly ask all of our witnesses, 
where would you start? What would be your top priority to try 
and launch a U.S. action to try and move down this path? 
Because it is an opportunity.
    I can start with whoever wants to jump in first. We will 
give the others time.
    We have no takers. I will do it in the--I will go to 
Ambassador Froman.
    Mr. Froman. Thank you. Thank you, Mr. Chairman.
    As you said, I think there are a wide range of 
opportunities to get things back on track in terms of 
cooperation. The most urgent right now is dealing with the 
COVID response and, as some of the others have noted, working 
together on therapies, diagnostics, and a vaccine, making sure 
that they are developed and distributed globally in a way that 
is equitable, as well, to address that challenge.
    I will leave the military and security issues to others on 
the panel who are more expert in that. I would say, on the 
economic side, we are going to need to cooperate to make sure 
the stimulus programs that every country is doing are as 
coordinated as possible and, when there are challenges to them, 
that they are not withdrawn in an uncoordinated fashion.
    And then, similarly, on the trade side, resolving some of 
the bilateral disputes we have and finding ways to work 
together on third-party issues, whether it is with China or 
with regard to the WTO.
    Mr. Keating. Okay.
    Dr. Donfried, do you have any thoughts? Where would you 
start?
    Dr. Donfried. Thanks so much.
    Just two quick points. One, to buttress your comment that 
there is an opening, I just want to share some of the findings 
from this public opinion survey, ``Transatlantic Trends,''_
because there is a question about which actor is most 
influential in global affairs. The survey was taken twice, in 
January, so before the pandemic, and then again in May. In both 
instances, Europeans and Americans see U.S. influence in the 
world as most significant. Now, there was a drop in U.S. 
influence, but it is still dominant.
    You see China's influence growing over that period of 
January to May, but, as I mentioned earlier, Europeans 
increasingly see China's role as a negative one. So there is an 
appetite for leadership, and there is an opportunity for the 
U.S. to step in.
    The second point is that, we should do our best to 
cooperate on the highest-profile issue out there as it relates 
to COVID-19, which is finding a vaccine. There is nothing that 
animates us more right now than the pandemic, and, within that, 
it is a vaccine or successful treatments that would allow us to 
return to some semblance of our pre-pandemic lives. So, if the 
United States and Europe can move out together on that, I think 
it would be a powerful move.
    Mr. Keating. Thank you.
    Ms. Ellehuus.
    Ms. Ellehuus. Thank you.
    Not surprisingly, I will echo the three buckets. As you 
said at the outset, Mr. Chairman, saving lives is the priority. 
So I would encourage the United States to join its European 
allies and partners in the development of a global COVID-19 
vaccine effort, as well as equitable access to the vaccine for 
all.
    The door certainly remains open. I think as Representative 
Kinzinger pointed to, there is some great cooperation going on 
among private-sector companies; we just need that government-
to-government cooperation to overlay itself on top and provide 
some direction and leadership.
    I think, fortunately, in terms of military cooperation, 
both bilaterally and within a NATO context, the U.S. does 
continue to lead. The European Deterrence Initiative is alive 
and well, and NATO allies are stepping up to revise the command 
structure and adapt the alliance to take into consideration 
things like the growing threat from China and disinformation. 
So I think we are on a good track there, but we just need to 
stick together.
    Mr. Keating. Great.
    I have been told that Dr. Carafano is back online. He will 
be recognized for his opening statement. If he wants to 
incorporate any of the answers to this as part of that, feel 
free.
    Dr. Carafano.

 STATEMENT OF DR. JAMES JAY CARAFANO, VICE PRESIDENT, KATHRYN 
  AND SHELBY CULLOM DAVIS INSTITUTE FOR NATIONAL SECURITY AND 
FOREIGN POLICY, E.W. RICHARDSON FELLOW, THE HERITAGE FOUNDATION

    Dr. Carafano. Thank you. I am happy to waive the opening 
statement and just jump into the conversation. I apologize for 
the technical difficulties, but I have figured out a 
workaround.
    What I would have said in my opening statement is, all of 
this is in the context of the great-power competition. COVID 
did not stop that. In some ways, it has accelerated it. And the 
number-one priority for the transatlantic community to thrive 
in this environment is restarting our economic engine.
    So I would put anything to do with transatlantic 
partnership and economic recovery as absolutely the priority. 
Everything else, I think, is just really smokescreen if we 
cannot get our economy up and running again.
    I think a great place to start is the Three Seas 
Initiative. It involves a number of very important European 
partners. The United States has already committed to that. It 
has committed to that in a constructive way by bringing in the 
Blue Dot Network as a standard for international investment.
    I think the U.S. could double down on the investment we are 
already making. I think it could expand it to areas outside of 
energy cooperation. I think that would be a very powerful and 
important way to jump in, in a way that is already established. 
This is already taking off and running. The next conference is 
in October.
    Second, behind that, as quickly as we seal a U.S.-U.K.FTA, 
I think that is an important step in building economic--and 
then the other thing, I really think that a digital free-trade 
agreement, e-commerce agreement, is achievable and really 
important in opening up U.S.-European economic innovation and 
creativity.
    I think the Europeans were wrong to press the United States 
to enter a pact to increase taxes on Big Tech. I think the U.S. 
was right to lead the OECD negotiations. I think in the USMCA 
agreement and in the U.S.-Japan Digital Trade Agreement we have 
a good framework for what a good deal would look like, and I 
think it is time for the U.S. to really move out and press--
take the momentum and press for an initiative on that front.
    Thanks.
    [The prepared statement of Dr. Carafano follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
    Mr. Keating. Thank you very much, Doctor.
    The chair now recognizes the ranking member, Mr. Kinzinger, 
for his round of questions.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    I have to say I am very impressed by Representative 
Costa's--it looks like he is a benevolent spirit floating 
around a beautiful canyon. So it has put me in a great mood.
    So, anyway, thank you guys for all being here, as I 
mentioned.
    Dr. Carafano, I have three questions for you and then one 
for Mr. Froman so we can plan our time accordingly.
    So, Dr. Carafano, in a post-COVID-19 era, how do you 
perceive the Three Seas Initiative helping to reboot the 
economic recovery of Central Europe?
    And, also, could you briefly touch on, you know, what 
role--how do we get Europe to push back against the temptation 
of accepting the, quote/unquote, ``free money'' that will come 
from China in the recovery process?
    Dr. Carafano. Thank you.
    So the Three Seas Initiative is really about building 
north-south infrastructure, which I think is enormously 
attractive not just to the Central Europeans and to the Baltic 
States and to Southern Europe but should be attractive to all 
of Europe, because that is potentially a new engine of economic 
activity that really is going to benefit all of Europe.
    I think all of Europe recognizes that. There are obviously 
trillions of dollars of investment in infrastructure that is 
needed. And I think the private sector is looking for places to 
invest where there is money on a return on investment. And I 
think the bulk of this will be done with private-sector money.
    And I think the private sector is willing to step in. It is 
looking for the commitment from European partners that they are 
going to green-light these projects. It is looking for 
confidence from the United States that the United States sees 
that it is an investment worthwhile, that the European Union 
sees that it is an investment worthwhile.
    It has not just the added benefit of new economic 
opportunity for all of Europe, but it creates new avenues for 
energy security for Western Europe which will greatly enhance 
the stability and security of Western Europe----
    Mr. Kinzinger. Can I----
    Dr. Carafano. Yes.
    Mr. Kinzinger. I am going to interrupt you real quick and 
say, when we are talking about energy issues, can you talk also 
about the Nord Stream 2 pipeline, and how important are 
additional sanctions for that, to stop that?
    Dr. Carafano. Well, I think Nord Stream 2 just undermines 
all of this. Nord Stream 2, by essentially creating a 
workaround, would really kind of destroy the incentives for all 
these projects.
    And we have seen some real successful initiatives recently. 
So, for example, the Croatia LNG ports, going forward, they 
have sold every cubic foot of natural gas for the next 3 years. 
That is a small but important step, and there is growth 
capacity there.
    And so there is lots of interest in looking for these 
projects, and I think what Nord Stream 2 does is it undermines 
the economic case for all of this. These are projects that are 
very doable. They carry very little political risk, and they 
bring enormous benefits.
    And I think that is the third pillar, which is, you know, 
we do not think of Three Seas as a military project, as a 
strategic initiative, but, from a practical perspective, you 
are strengthening the frontier of NATO. You are creating north-
south infrastructure which is completely dual-use, and you are 
making that part of Europe more resilient against Russian 
pressure.
    So it literally is the lowest-hanging fruit. And, to me, 
the great advantage is, it is an investment to the United 
States. We are not lending money. We are investing money. And 
we will probably make a very decent rate of return on that.
    Mr. Kinzinger. Thank you, sir.
    Mr. Froman, let me ask you, how has the pandemic and the 
resulting economic fallout affected the U.S.-U.K. and U.S.-EU 
trade negotiations? What do we need to be aware of?
    Mr. Froman. Well, I think, just practically, it has slowed 
down any engagement with either, just because everyone is 
preoccupied in other ways.
    I do think there is potential to get both back on track in 
the near future and that, with the U.K., there is great 
potential, as I mentioned, to explore new rules around digital 
economy, around new technologies with a like-minded partner 
that could set a standard, building on USMCA and elsewhere to 
take that forward.
    With the EU, there are some traditional issues of dispute 
that we have, particularly over agriculture, which are no 
easier now than they were several years ago to resolve. I see 
Congressman Costa laughing; he knows them well.
    But I think there, too, the dialog has evolved so that, 
while a big, comprehensive free-trade agreement that has been 
pursued in the past may not appear possible at the moment, it 
could be possible to work together on things like e-commerce, 
on digital economy.
    And I do believe, I am optimistic that there are ways of 
squaring the circle between protecting privacy, which has been 
an issue between the U.S. and the EU in the past, and allowing 
for the free flow of data across borders, which creates so much 
value and innovation for the technology communities and for 
consumers, very importantly, most importantly, on both sides of 
the Atlantic.
    Mr. Kinzinger. Great. Thank you.
    Mr. Chairman, I will yield back. I appreciate you and all 
the witnesses.
    Mr. Keating. Yes. Thank you.
    The chair recognizes Mr. Meeks of New York.
    Mr. Meeks. Thank you, Chairman Keating. It is fantastic. 
You have some great witnesses here.
    And I thank each and every one of you for your testimony.
    Let me start with Mr. Froman, you know, because I know we 
have had conversations before, and I do agree when you say that 
public-private partnerships are critical to addressing major 
economic and social challenges. And, you know, I just had a 
conversation with someone on another committee in that regard 
and seen it work.
    But my question to you is, what do you see as potential 
barriers to strengthening the transatlantic private and public 
partnerships as the United States and Europe allies seek to 
stimulate growth in the aftermath of COVID-19 and to maximize 
both taxpayer dollars and yet leverage the expertise provided 
by industries like yours?
    Mr. Froman. Thank you, Congressman.
    You know, I think, as you note, a lot of these issues that 
we are dealing with on both sides of the Atlantic we are only 
going to solve if we bring the private sector to the table. 
Government support is important, philanthropic support is 
important, but unless we can really mobilize the ingenuity, the 
resources of the private sector, it is very hard to address a 
lot of these issues successfully.
    I think one of the great obstacles, to answer your 
question, is a lack of trust--a lack of trust on both sides of 
the Atlantic. There is a lot of concern in Europe that American 
companies are going to come in and buy up some of their crown 
jewels or play a dominant role in their economy. And I think we 
have to find ways of bridging that distrust so that we can 
cooperate with each other.
    Cooperation among the private sector generally works pretty 
well. You know, we know how to do that with each other. But 
where we can reassure governments that we are there to be a 
partner and a problem-solver on the issues that they care about 
most.
    And I will just use one example from our own experience. In 
the context of COVID, we worked not only the U.S. Government 
through Direct Express Program of the Treasury Department but 
with governments all over the world to help them make social 
disbursements to individuals and small business to get through 
this crisis.
    And the more that we can demonstrate to them that we are 
willing and able to bring our technology and our products and 
services and expertise to the table to help them on their 
issues, I think the more success we will have in building the 
trust necessary for true public-private partnerships.
    Mr. Meeks. Thank you for that.
    And, you know, one of the frustrations I have, as a Member 
of Congress, as the President pulls us out of all these 
multilateral organizations, the latest being the World Health 
Organization, is, what do we do, what do I do, as a Member of 
Congress, to make a difference?
    And, Dr. Donfried, you had talked about--and I think Ms. 
Ellehuus also--about the resumption of annual United States-EU 
summits and other summits that may bring parliamentarians and 
parliamentarians together.
    And what role do you think that these summits play? And do 
they fill a gap? Are they significant and important for us to 
have these conversations and
    [inaudible] The significance and where the U.S. Congress 
stands as it pertains to these multilateral organizations?
    Dr. Donfried. I am happy to jump in. It was Rachel who 
mentioned resuming those annual U.S.-EU summits, so I will 
certainly have her speak to that, but I do think the more 
contact there is, the better.
    I want to pick up on something that Mike just said about 
trust. Because when we think about alliances, I always ask, how 
do you define an alliance? First, the countries in an alliance 
share values. That is certainly true with the U.S. and Europe. 
We also share interests. And we trust each other. I do think 
that there has been a big wrecking ball that has affected trust 
negatively in the transatlantic relationship over recent years.
    We have to start rebuilding that trust, whether through 
annual U.S.-EU summits or through stepped-up engagement between 
the U.S. Congress and European parliamentarians, both the 
European Parliament in Brussels and national parliament.
    Because we share interests and values, we can coordinate 
policy on all of the areas the witnesses have spoken about, and 
I really would encourage increased parliamentarian dialog.
    Thank you, Congressman.
    Ms. Ellehuus. Karen, I am happy to pick up on the idea of 
U.S.-EU summits. We used to do these annually. And then there 
were a number of working groups that were subject-specific and 
really just linked to whatever was timely. So, in these days, 
it would probably be the things we have discussed today, like 
the pandemic; healthcare; generally speaking, economic recovery 
and how to work together in pushing back against China.
    I think, though, the one thing we have to see in a bigger 
context, though, is that the U.S.'s withdrawal from some of the 
multinational treaties, like INF and JCPOA and Open Skies, are 
not necessarily a problem in and of themselves. There are a 
number of European allies who also view these treaties and 
agreements as imperfect. But where I would really differ with 
the approach that has been taken so far is that the answer is 
to walk away.
    I would like to see more open letters, whether it is on the 
WHO or it is on arms control, between the U.S. and EU allies. 
Maybe not the whole European Union, but it could be contingents 
of like-minded allies, possibly bringing in Australia and 
Japan. Making statements on things where we share a common 
concern, and talk about how we fix these agreements rather than 
tearing them down.
    It is much harder to build something from scratch and to 
get everybody on board again, much easier to tweak it at the 
margins and update it and adapt it to today's problems.
    Mr. Meeks. Thank you.
    I am out of time. I yield back.
    Mr. Keating. Thank you.
    The chair recognizes Representative Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for hosting this 
hearing.
    And thanks to all of our distinguished witnesses.
    I would like to especially welcome Ambassador Froman, vice 
chairman of Mastercard, who employees 3,200 of my constituents 
and has proven to be a real ally in the fight to end human 
trafficking.
    So I thank you so very much for that and many other things.
    The U.S.-European relationship has long been a source of 
stability, and I am confident that cooperation between the 
United States and its partners across the Atlantic will improve 
our ability to respond to complex global health crises going 
forward.
    Dr. Carafano, how effectively are our European partners 
pushing back on the Chinese Communist Party's propaganda 
campaign and sharing the truth of the CCP's egregious 
mishandling of the coronavirus outbreak? Do you anticipate that 
European countries will be more willing to oppose Chinese 
predatory investment practices and push to control 
international organizations?
    Dr. Carafano. Well, thank you for that question.
    I think the trend line is positive for a stronger European 
coordinated response on China. And I think this gets to the 
larger narrative. I mean, we seem to have created a scenario 
that the challenges in the transatlantic relationship are 
really about this administration. I think doing that is a 
mistake, because the reality is, the issues are far deeper. 
They have been developing for some time. Many of them have to 
do with European perceptions of their external environment, 
including different European views on Russia and very, very 
diversified European views on China.
    What we have seen in the last 4 years, though, is, despite 
the fact that transatlantic relations have been actually quite 
contentious and the relationship with China is maybe the 
defining challenge of Europeans, the trend is that Europeans 
are moving more toward a position that looks more like the 
United States: I mean, if you look at, for example, the shift 
in the U.K. on Huawei investments; Central European countries 
are much more skeptical of the Europeans.
    Now, I am not being Pollyannaish about this, that there is 
a unified European perspective on China. There isn't. That 
actually is one of the greatest challenges to Europe, not just 
to the transatlantic relationship.
    But I think bringing transparency to Chinese activity--and 
I think COVID has been an example where many, many players in 
the NGO field and countries have done that, and that has helped 
move it in the right direction.
    I think transparency is the key weapon of the free world. 
The more we explain what the Chinese Communist Party is doing, 
the more countries will make better choices in terms of 
developing a position----
    Mrs. Wagner. Thank you.
    Mr. Carafano [continuing]. That looks more unified across 
the free world.
    Mrs. Wagner. Thank you.
    Ambassador Froman, I am glad that you mentioned efforts to 
reform the World Trade Organization as a potential area for 
increased transatlantic cooperation.
    How might the United States and European countries work 
together to ensure the rules governing trade reflect the 
rapidly evolving global economy?
    Mr. Froman. Well, thank you, Congresswoman, and I think, 
really, the WTO is an example of three things. It is a forum 
for negotiating agreements; it is a place where countries 
monitor each other's trade policies, including their subsidy 
policies; and it is a place for dispute resolution. And right 
now, all three parts are effectively deadlocked.
    I think if the U.S. and the EU came together--and, 
historically, it has been the U.S. and the EU that have really 
driven the development of the global trading system--I think we 
have so many common interests across all three, I think we 
could move things forward.
    Of course, it is an organization of 160 countries. So 
whether it is China or India or any number of other countries 
that might stand in the way of consensus and make some of that 
reform difficult, but we should be prepared, then, to work with 
each other, like coalitions of the willing, so to speak, to 
move ahead like like-minded countries and create what we call 
open plurilateralism, where ourselves and the EU and a few 
others get together to move things along, and anybody else who 
is willing to sign on to those rules could join----
    Mrs. Wagner. Thank you.
    Mr. Froman [continuing]. And that could help----
    Mrs. Wagner. Thank you.
    Mr. Froman [continuing]. Build the system.
    Mrs. Wagner. Thank you.
    Two weeks ago, Estonia hosted a virtual foreign ministers 
meeting for members of the Three Seas Initiative, a 
multilateral effort to accelerate economic development and kind 
of interconnectivity in the strategically critical region 
between Baltic, the Black, and the Adriatic Seas.
    Dr. Donfried, I know I have limited time, but given 
mounting evidence that Russia is increasingly willing to accept 
high levels of risk in its campaign to undermine U.S. 
influence, how should the United States be proactively looking 
for ways to tighten cooperation with Three Seas Initiative 
countries like Poland, Hungary, and the Baltic nations in this 
post-pandemic world, in zero seconds?
    Dr. Donfried. I think there are lots of opportunities. The 
Administration has a strong relationship with Poland. We share 
the same concerns about Russian behavior, and we will continue, 
I think, in a transatlantic fashion to be deeply engaged in 
standing up to Russia and being resilient to that threat. Thank 
you.
    Mrs. Wagner. Thank you.
    I appreciate the chair's indulgence, and I yield back, Mr. 
Chairman.
    Mr. Keating. Thank you.
    The chair recognizes Representative Titus from Nevada.
    Ms. Titus. Thank you very much, Mr. Chairman. And thank you 
to all the witnesses' very eloquent presentations.
    You know, we know that the coronavirus is a public health 
issue. It is also an economic crisis. But it is a crisis of 
democratic governance, and, unfortunately, we have seen a lot 
of examples recently of authoritarian governments using the 
pandemic as an excuse to crack down on their populations and 
consolidate power. We have seen human rights abuses. We have 
seen journalists attacked. We have seen a lot of this in 
Eastern Europe. And I am afraid we are going to be dealing with 
the impacts of democratic backsliding that has taken place 
during this virus for many years to come.
    I am particularly concerned about Ukraine's backsliding on 
some of their promised reforms, and I am wondering if all of 
you could address how we can work with Europe to shore up 
Ukraine and be sure that it moves toward the west as well as 
support other, more--you know, some fragile democracies during 
this time.
    Dr. Carafano. Well, I will just start with one brief 
comment. One of the areas where I think the U.S. has really 
lagged is in public diplomacy, and particularly the work of the 
Agency for Global Media. We have new leadership there. It is 
very controversial, but I would love to see a strong bipartisan 
effort really looking to see what we can do to make that agency 
a more powerful and effective tool, particularly in talking 
with our friends in Western Europe.
    Ms. Titus. Anybody?
    Ms. Ellehuus. Yes. This is Rachel. Just not to take up your 
time, I think that the European Union can play a strong role in 
addressing democratic backsliding, particularly some of the 
eastern allies that you mentioned, like Poland and Hungary, are 
major recipients of EU stability funds that help bolster their 
countries. Maybe making those conditional on progress on some 
of the democracy and rule of law indicators that you mentioned 
would help incentivize good behavior.
    In terms of shoring up our assistance to Ukraine, I think 
we could be better at coordinating with other like-minded 
allies, like Poland, Lithuania, United Kingdom, and the Baltic 
States, who also invest a significant amount of money there.
    Thank you.
    Ms. Titus. Okay.
    Dr. Donfried. This is Karen. Can you hear me?
    Mr. Keating. Yes.
    Ms. Titus. Uh-huh.
    Dr. Donfried. Oh, thank you.
    Congresswoman, I just wanted to point out the really 
important work that USAID is doing in that region of Eastern 
Europe. The German Marshall Fund has a trust called the Black 
Sea Trust for Regional Cooperation, and we are regranting U.S. 
aid dollars to civil society actors in Ukraine and other 
countries that border the Black Sea. The argument is that 
democracy isn't just about free and fair elections, but it is 
helping citizens hold government accountable. And for countries 
that are still coming to terms with a long communist past, 
building that strong civil society is a critical piece of what 
we can be doing.
    I just want to applaud the work USAID is doing through 
organizations like GMF and the fact that there has been 
consistent congressional support for that. I cannot underscore 
the importance of that enough.
    Thank you.
    Ms. Titus. You know, I completely agree with you. I serve 
on the House Democracy Partnership that works very closely with 
USAID, and a number of these countries that we tend to think 
that they are more in underdeveloped countries, but that that 
is not the case when it comes to building that civil society 
and that accountability and going after corruption. We think 
that strong legislatures are the key to a strong government, so 
what happens between elections is as important as what happens 
on election day.
    I am concerned, though--and I have--I know the chairman--I 
would like to talk to him more about this--about the recent 
appointment in the White House to be in charge of the USAID, 
because I fear that he or she, both, are going to take us in 
the wrong direction and have a record of statements that are 
very contrary to what we have expected from USAID.
    Mr. Keating. Great. Any other questions?
    Ms. Titus. I yield back. Thank you, Mr. Chairman.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Fitzpatrick from 
Pennsylvania. If your video is not on, please put it on, 
Representative, according to the rules.
    Mr. Fitzpatrick. Yes, sir. Thank you, Mr. Chairman. Thank 
you to the panelists for being here today.
    And just wanted to have--or get your honest feedback and 
thoughts, perspectives on the World Health Organization. 
Obviously, what we are here to talk about today is 
transatlantic cooperation.
    We all know that there have been an incredible amount of 
loss of life and a loss of wealth as a result of this pandemic. 
And, you know, if my dates are right, sometime as recently as 
mid-January, the World Health Organization tweeted out that 
they believed that there was no human-to-human spread of 
coronavirus. So the question there becomes: How do we react to 
this?
    You know, I agree with Representative Kinzinger. We have to 
remain at the table. We need to be seated at the table, for 
sure. But what is the best response to this as far as a--you 
know, once we get through this, a sort of after-action report, 
audit into WHO? How should it impact their funding? How should 
it impact the way the world views WHO, and the U.S. in 
particular?
    That is to anybody on the panel.
    Mr. Froman. Congressman, it is Mike Froman here. And I am 
no expert on the WHO, but let me just say that, as you and 
Ranking Member Kinzinger said, we have got to remain at the 
table. And if there is one lesson from one crisis after 
another--and this is only the latest--it is U.S. engagement, 
U.S. leadership is absolutely critical to shaping the rules and 
the institutions that we need to deliver global public goods. 
And the WHO is one of those. Whether it is through the G7 or 
the G20 or through our membership in a number of multilateral 
organizations, other countries look to us to provide both the 
intellectual and the diplomatic leadership to get things done.
    And going--looking ahead, I think figuring out how best to 
apply that leadership to reengage and to make sure that we are 
focused on reforming these institutions, updating them, and 
making sure they have the resources that they need to succeed 
is going to be a critical function for the U.S.
    We have now--we have demonstrated through this crisis that 
we are all so interconnected and that the welfare of one part 
of the world very much affects the welfare of the other. We 
cannot deploy--we cannot pretend that we can put up a wall and 
keep ourselves away from the pandemic or another transnational 
threat, and, therefore, it requires U.S. leadership.
    Dr. Carafano. Jim Carafano. If I could just State briefly, 
one of the things I highlighted in my written statement is 
this. Look, international organizations are no longer just 
about setting international norms in cooperation. They are 
literally a new battleground in great power competition, and I 
think we have to be realistic about that, and we have to have a 
strategy that deals with these malicious influences. So I 
actually do not think it is sufficient to just say we have to 
stay at the table.
    What we need is a strategy to either get organizations to 
reform. We have to figure out if we--they do not--if we do not 
need to be there, we can withdraw. And if we--if is it an 
essential activity and we cannot get reform, then we have to 
figure out how to replace them.
    I think, in the case of WHO, clearly what we need is a set 
of concrete expectations about appropriate behaviors that 
address the failures of the WHO. And we would need to hold 
participation and money to addressing that list, and I am happy 
to provide for the record some suggestions for that, if that 
would be helpful for the committee.
    Dr. Donfried. I would argue that this is another example 
where you can see the power of cooperation with Europe. The 
U.S., if it stays at the table, stays in the WHO, and seeks to 
reform that institution, will find European allies, who have 
been very clear that they see a real need for WHO reform as 
well. So why not use this moment to speak with our European 
allies about what that reform agenda could look like? Surely we 
will have more impact the larger the number of allies that we 
have in the WHO to drive that reform.
    We are more powerful when we work together with other like-
minded countries. Thank you.
    Mr. Fitzpatrick. Thank you.
    I just want to close by saying, you know, on the topic, 
which is the topic of this hearing, transatlantic cooperation, 
I cannot think of a more important thing for that to center on 
than WHO reform, because I think we all recognize now that 
there was very little oversight of WHO, No. 1.
    And, No. 2, if people did not realize before, they should 
realize now how incredibly important the functions of that 
agency are; that they are responsible for alerting the world to 
highly contagious pathogens that can cause an immense amount of 
damage both to human life and to economic growth throughout the 
world.
    So utilizing some kind of international tripwire system, 
which would be part and parcel to the sentinel surveillance 
system, or some kind of tripwire that would identify any type 
of novel outbreak at its source and require reporting, so that 
other countries can put up their guardrails to whatever--to 
whatever level they see fit to protect their nations, I think, 
is going to be incredibly important.
    I yield back, Mr. Chairman.
    Mr. Keating. All right. Thank you.
    The chair recognizes Vice Chair Spanberger from Virginia.
    Ms. Spanberger. Thank you very much, Mr. Chairman.
    And to all of our witnesses today, thank you so much for 
being with us. I am grateful for you all bringing your 
expertise to this committee.
    Ms. Ellehuus, I would like to begin with you. As you all 
know very well, NATO does more to support U.S. interests than 
many people realize or could imagine. For example, the allied 
COVID-19 response efforts facilitated the delivery of critical 
medical supplies and the deployment of medical professionals to 
the United States. Additionally, the NATO Support and 
Procurement Agency has supported allies and partners through 
the COVID-19 relief acquisition and transport, and NATO members 
have been able to request and receive PPE through the NATO 
Logistics Stock Exchange.
    Could you elaborate a bit on how NATO has contributed to 
the COVID-19 response, and particularly how the United States 
has or has not engaged with that coordinated response, first 
piece?
    And then, second, as we are looking toward the future, when 
we look at our infection rates, when we look at the potential 
for additional waves into the future, how could NATO members, 
including the United States, ensure that we are most 
effectively responding at home and also best utilizing and 
strengthening the existing mechanisms that exist within our 
NATO partnership?
    Ms. Ellehuus. Thank you. I actually think that NATO is a 
bright light in terms of U.S. leadership and cooperation. NATO, 
as I said in my testimony, was very quick to start coordinating 
donors with countries that needed assistance. Of course, NATO 
has very few commonly owned capabilities, so it draws on the 
resources of its member States.
    But among the aircraft that were used to transport that 
equipment was the Strategic Airlift Consortium, which is a 
grouping of allies who purchase C-130 aircraft and share hours 
on those flights for exactly these types of situations, 
emergency transport requirements. So I would like to see a bit 
more pooling and sharing of resources in the future on these 
high demand, low-density type of capabilities, like strategic 
and tactical lift, as well as some intelligence capabilities.
    NATO has also played a great role in terms of resilience. 
Their Civil Emergency Protection Cell has done resilience 
assessments of all the NATO allies. So they look at how well or 
poorly they were prepared to withstand COVID-19 and similar 
crises in the future, whether manmade or natural. And the next 
step would be for NATO to update their baseline requirements on 
resilience, so things like energy, telecommunications, supply 
chain security. What do we need to make all of those things 
more resilient? And I do think that, in the future, part of 
that answer are these political discussions going on at NATO 
about the baseline requirements with regard to China in all of 
those areas.
    And the final area where I think there is progress for NATO 
to be even better prepared in the future would be some 
consideration of stockpiling. We do not want to spend all the 
alliance's resources on preparing for eventualities that might 
not come to pass, but if it is something--even if it is low 
likelihood but high consequence, NATO should consider that in 
its defense planning and resourcing decisions.
    Thank you.
    Ms. Spanberger. Thank you very much.
    Ambassador Froman, a followup question very much related to 
that one. There appears to be a fair amount of potential for 
improvement about how it is that we can optimize our medical 
supply chain and the security of that supply chain to ensure 
that for future waves we do not have the same challenges that 
we faced as it related to nasopharyngeal swabs or reagents or 
PPE.
    Could you discuss how the United States and our European 
partners could work together to diversify our medical supply 
chains to improve our own health and resiliency and also serve 
the potential goal of reducing dependence on countries like 
China?
    Mr. Froman. Thank you, Congresswoman. You know, I think 
companies have been looking at their supply chains now for some 
time. For a while, it was because costs in China were already 
going up on their own 20 percent a year. And then due to the 
trade tensions with China, there was a concern about being 
overly reliant on suppliers coming from that market.
    Now COVID, of course, has underscored the importance of 
looking at supply chains and looking at it from an operational 
risk perspective. Can we afford from a risk perspective to be 
so dependent on one country or to be so dependent on supply 
chains that are so extended around the world? And that has led 
companies to move supply--either to diversify supply chains in 
the region, move them closer to home, or, in fact, move some of 
the production back to home, and in each case it will be 
somewhat different.
    Where there are critical supplies, then we do need to look 
at what needs--what can we--what do we absolutely need to have 
produced in our country and what can we rely on trade and 
exports from allies nearby? And I think that is the key 
question that we are going to have to work our way through.
    There is always a risk of fighting the last battle, which 
is, let's look at nasal swabs, when the next battle may not 
have anything to do with a pandemic or nasal swabs or tests. We 
just need to look more generally at the resilience of our 
supply chains, the diversification, and then where there is an 
absolute strategic priority, whether it needs to be 
domestically.
    Ms. Spanberger. Thank you very much.
    Mr. Chairman, thank you for letting me go over. I yield 
back.
    Mr. Keating. Thank you very much.
    And that goes, Ambassador Froman, for intermediate products 
in the supply chain as well, which are critical.
    The chair recognizes Representative Burchett from 
Tennessee.
    Mr. Burchett. Thank you, Mr. Chairman. And just for the 
record, I hate following Ms. Spanberger. That is why nobody 
wanted to follow Jimi Hendrix at Woodstock, because her grasp 
and knowledge of these topics are--surpass my 6 years of 
undergraduate studies at the university. So I am always--I 
always like hearing from her, especially with her perspective 
and her background. That is an all----
    Mr. Keating. Well, you could be the Leon Russell 
representative.
    Mr. Burchett. Yes. I play at 6:30 in the morning. Everybody 
would cuss me.
    Hey, I appreciate you all being here. And, Mr. Chairman, 
again, excellent, excellent panel, once again. I hate having to 
say that to you every time, but, dadgummit, it is the truth.
    I am concerned about Beijing's mishandling of the COVID-19, 
the CCP subsequent disinformation campaign. And how can the 
U.S. stress to its European allies and partners the need to 
take the threat from Beijing more seriously. You know, I was 
glad the UK did not get in--on the Huawei with their 5G, and 
they got off that. And so I will just ask, and I quit. Any of 
you all can jump in.
    Dr. Donfried. I am happy to jump in. I think that is a 
critical area for transatlantic cooperation, and I do believe 
that there has been a real sea change in European attitudes 
toward China over the past year and a half. You see it in some 
of the official statements that have come out and you see it in 
terms of specific policy changes.
    Europeans, both because of the extent to which China has 
been buying up strategic investments across Europe, and because 
of what China is doing on the human rights front, whether it is 
their treatment of the Uighurs in Xinjiang, or what is 
happening with Hong Kong, Europeans do understand the threat 
posed by China. Now the question is how we, Americans and 
Europeans, can try to, if not have a common policy, coordinate 
much more effectively our policies.
    You see, just today, National Security Advisor O'Brien is 
in Europe meeting with his French, German, British, and Italian 
counterparts on China. We saw Secretary of State Pompeo accept 
an offer from his European counterpart to have a U.S.-EU dialog 
on China. We do see that exchange is growing.
    And I think one of the areas you mentioned, disinformation, 
is a terrific example of an area where Americans and Europeans 
have exactly the same assessment of the extent to which we are 
seeing Chinese disinformation throughout our societies, both 
trying to deepen the divisions in our societies and even affect 
elections. I think these are vital areas for the U.S. and 
Europe to cooperate on in standing up to China.
    Thank you.
    Dr. Carafano. I think this was really important that we get 
it right in terms of the NATO context. I think NATO's primary 
interest in dealing with China has to be China's capacity to 
interfere in NATO's ability to defend its area of operations. 
And so there really needs to be a robust dialog across NATO and 
understanding what the Chinese can do to undermine NATO's 
ability to do its mission and have a specific plan to deal with 
that. It is not really about dialog with China. It is how do we 
minimize the threats that China may pose--destabilizing threats 
in this area of responsibility.
    I think one great initiative would be great to see a NATO 
center of excellence that looks at some of the aspects of 
Chinese competition, including disinformation and economic 
activity. I think that would be really useful for NATO.
    Ms. Ellehuus. Hi there. I would just like to add a point on 
our approach to Europeans now that they are moving closer to 
our position. I think, you know, if you go back 3 or 4 years, 
you see that the U.S. was equally trying to have a good 
economic relationship with China and look aside against some of 
the security interests.
    I think we can really influence EU legislation on foreign 
direct investments. They are already standing up the process, 
very similar to our CFIUS vetting. I think shining a light on 
the disinformation is important.
    Increasingly, what we have seen in this COVID crisis is 
China taking a page from the Russian playbook in terms of how 
they execute disinformation. Before, it was about image 
improvement for China. Increasingly, it is about undermining 
Western democracies. And so we can work with European countries 
to compare notes and tailor our response accordingly.
    Thank you.
    Mr. Keating. Okay. With the time expiring and no followup, 
I will recognize Representative Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Keating and Ranking 
Member Kinzinger for this very informative hearing. And thank 
you to our witnesses for sharing your expertise.
    I would like to first--I know all of our witnesses have 
spoken about the importance of the U.S. playing a leadership 
role in the development of a vaccine, but I want to ask at the 
beginning: How does the coordination between the United States 
and our European partners in this current pandemic differ from 
the previous relationships and responses from other serious 
health outbreaks; Ebola, H1N1? You know, how would you sort of 
access the way the U.S. has responded to COVID-19 compared to 
those other instances?
    Ambassador Froman, maybe you want to start.
    Dr. Carafano. Yes.
    Mr. Froman. I am sorry. Go ahead. Go ahead.
    Dr. Carafano. I think what is really key here is what has 
made this so impressive is the economic impact. This is the 
first global health
    [inaudible] Which we have actually seen have wide-scale 
economic impact at the same time.
    So, you know, we had things like the Asian meltdown and the 
Mexican economic meltdown, but having this economic crisis and 
the--at the same time, that has been unprecedented. So I think 
where we look at in terms of the U.S.-European cooperation is 
that we cannot look at just we have to make better health 
policy together; let's make a better economic policy together. 
We have to make a better resilient policy together, which means 
we have to be able to deal with these complicated factors 
simultaneously, and many of them have an EU competency.
    So the reality is U.S.-EU cooperation simply has to be more 
constructive and productive if we are going to deal with this 
in the future.
    Sorry, Michael.
    Mr. Froman. Absolutely. And I agree with all of that. I 
would say that what has been interesting here has been the role 
that the private sector, philanthropies, and nongovernmental or 
quasi-governmental organizations have played here. And the way 
the Gates Foundation, Wellcome, ourselves, the U.K. Government, 
a number of philanthropists, Gavi, The Global Fund have all 
been working to try and--CEPI--to find solutions here has been 
absolutely--absolutely critical.
    And I think, again, we have to look at--if we look forward, 
investing in, as James said, in resilience, investing in health 
systems, making sure that these countries around the world have 
the capability of dealing with these issues, including in the 
U.S., but also in other countries around the world.
    The economic piece of this is absolutely critical. And here 
is where the cooperation should be self-evident, whether it is, 
again, through the G7, the G20, through the IMF and the World 
Bank, the institutions that we have created together with the 
EU to help manage international crises like this one.
    Right now, we are sort of engaging in parallel play, and 
central banks are doing their own thing. National governments 
are doing their own thing. It is going to become increasingly 
important that we have a coordinated response to ensure that as 
people come back to work, as we return to--as we contain and 
stabilize and some degree of normalcy and back to growth, that 
we have got a coordinated approach, and the U.S. and the EU is 
a good place to start.
    Mr. Cicilline. Thank you.
    Ms. Donfried, I wonder if you could speak some about the 
disinformation campaigns and how it has affected both the U.S. 
and European COVID response plans, and I am, you know, 
particularly interested in the role of China in both engaging 
in and really actively spreading disinformation, and how we 
might be working better with our U.S.--European partners to 
respond to disinformation related to COVID-19, what we should 
be doing with our social media platforms in partnership with 
the European Union. But we have seen examples in this country 
of widespread dissemination of misinformation that is likely 
causing the death of Americans and obviously people around the 
world, and it seems to me this is a place of a real opportunity 
to partner closely with our allies. I would love to know your 
thoughts on that.
    Dr. Donfried. Thank you so much for the question. I want to 
give a shout-out to some of my colleagues with GMF's Alliance 
for Securing Democracy, who have been looking very closely at 
the disinformation space. They literally track the messaging 
that is coming from Chinese and Russian State-backed media, and 
recently have added Iran to that mix as well.
    The fascinating thing is that you see these State actors 
not only spreading misinformation. There is some of that, and 
that is deeply disturbing, but they are also trying to deepen 
the fault lines in the U.S., for example, between people who 
believe in vaccinations and anti-vaxxers. They are trying to 
deepen those divides within the country and are very skillfully 
using disinformation to do that.
    I think the first thing is to understand what these actors 
are doing and shine a spotlight on it, because transparency is 
a good reaction to it. But then we also need to think about how 
we defend ourselves better against it, and I am happy to share 
with you some of the policy recommendations we have proposed.
    We also believe that this is an area where the U.S. and 
Europe can work very effectively together, because our European 
allies see the same thing and are concerned about it. We have 
seen the European Parliament establish a special committee on 
foreign interference, and they will be producing a report 
within a year. The European Commission has been very active in 
the space.
    I do think that together we can be even more effective not 
only in exposing those disinformation campaigns, but in putting 
in place policies that allow us to stand up to it.
    Thank you very much. And I am happy to explore that in 
greater detail with you.
    Mr. Cicilline. I will absolutely followup with you, and I 
thank you so much.
    And, with that, Mr. Chairman, I yield back.
    Staff. Sir, you are on mute.
    Mr. Keating. Representative Wild from Pennsylvania.
    Ms. Wild. Thank you, Mr. Chairman.
    This is for Dr. Donfried. And this has been a really 
interesting conversation that is, I think, very thought 
provoking to all of us on both sides of the aisle.
    The coronavirus pandemic we know to be a transnational 
threat, and it certainly does not stop at one country's 
borders. And as such, the world's leaders have to work 
together--I think we are all in agreement on that--to contain 
and conquer the virus.
    The European Union has sought to lead international efforts 
to develop COVID-19 treatments, diagnostics, and vaccines. In 
addition, the U.S. Government has engaged in supporting and 
funding the development and manufacture of COVID-19 vaccines 
and treatments.
    My question to you is this: How much collaboration 
currently exists between the CDC and the U.S. and the EU's 
equivalent ECDC, the European Center for Disease Prevention and 
Control? And in what ways could health experts in the U.S. and 
the EU cooperate more going forward?
    Dr. Donfried, that is for you.
    Dr. Donfried. Thanks so much for that question. I can share 
with you that we at GMF had a series of discussions called 
Brussels Forum, which is our annual signature conference, but 
we could not meet in person this year, so we had virtual 
sessions. One of them was with Dr. Debbie Birx of the White 
House Coronavirus Task Force; she spoke very compellingly about 
the extent to which health officials in both the U.S. and 
Europe are cooperating on a day-to-day basis on COVID-19.
    On the one hand, I do think the cooperation at that level 
is still quite robust, but there definitely have been some 
important political disconnects. Just to give one example of 
that, we recently saw the German Government pay 300 million 
euros to purchase 23 percent of a German biopharmaceutical 
company called CureVac. The reporting was that the German 
Government did that because President Trump had mused aloud 
about potentially paying CureVac to relocate to the United 
States.
    Around vaccine production, we have seen countries 
increasingly be concerned that a different country will be the 
first one to get a vaccine, they will then hoard that vaccine, 
at least initially and, therefore, it will not be available to 
others.
    I think cooperation between governments to complement what 
we are seeing among health officials or universities or even 
companies, would be a really useful antidote to what is being 
now called vaccine nationalism.
    Thank you.
    Ms. Wild. Thank you. And I assume that we can agree that 
more concerted U.S. and European cooperation would likely 
expedite the development of a vaccine or treatment and its 
eventual worldwide distribution. I know that we are, on both 
sides of the Atlantic, considering ways to reduce medical 
supply chain vulnerabilities, especially dependence on China 
for PPE.
    I would be interested in your thoughts in how the U.S. and 
the EU might boost their existing trade in medical supplies, 
and in what other ways they need to cooperate to ensure more 
access to PPE and critical medical supplies.
    Dr. Donfried. Thanks. First, I completely agree with your 
conclusion that if there is greater cooperation between the 
U.S. and Europe, we are more likely to have a vaccine more 
quickly and, in fact, some of those other behaviors might lead 
to a longer path to an effective vaccine.
    On PPE, I very much agree with the comments Mike Froman 
made earlier that what we want to do in terms of our supply 
chains is make them more resilient, rather than just try to 
produce everything ourselves. If we can create greater 
resilience by having transatlantic supply chains on PPE and 
other critical medical equipment, we will be very well served. 
Those supply chains will be closer geographically, and we also 
will not have that concern about an overdue reliance on a 
country like China, which may not have our best interests at 
heart. That idea of protecting and making more resilient those 
supply chains, again, can be a common project and can serve 
U.S. citizens and your constituents well.
    Ms. Wild. You know, I am always a fan of good, healthy 
competition, but it seems there are some areas, this one in 
particular, where competition isn't necessarily what we want. 
What we want to see is more cooperation, but thank you so much 
for your comments and your responses.
    Mr. Chairman, I yield back.
    Mr. Keating. Thank you.
    The chair recognizes Representative Trone from Maryland.
    Mr. Trone. Thank you, Mr. Chairman. Thank you very much. 
And thank you to the witnesses.
    Ms. Ellehuus, isolation, stress, feelings of insecurity, 
and concerns about economic health and well-being play a huge 
role in mental health. We have been seeing large increases in 
the needs connected to mental health in the U.S. during this 
pandemic. Are there any examples of European countries that 
have recognized the importance of protecting mental health and 
have addressed mental health issues during this time, 
including, for example, with their healthcare workers who are, 
you know, treating COVID-19 patients, and the population in 
general?
    Ms. Ellehuus. Thank you, Congressman. I am happy to go back 
to my healthcare colleagues at CSIS and get you a more detailed 
answer, but among the anecdotal stories I have heard from 
European allies, you know, certainly one of the advantages that 
they do have compared to the United States is a more 
nationalized healthcare system. And so they are able to take 
those stresses off their healthcare workers and rotate the 
responsibilities a bit more. Also, in terms of PPE and medical 
supplies, a lot of those were held by the national healthcare 
system, more made available on a quick turn.
    And then, finally, one of the things that I think is a 
difference that I have observed is the deliberate isolation of 
COVID cases from the normal business of what a hospital does. 
So whether that is cardiac patients, mental health, a lot of 
the hospitals in Europe have created special wards for the 
COVID cases and not--recognizing that, even as the pandemic 
goes on, there are other healthcare problems that need to be 
addressed.
    So I think one of the lessons we could learn from our 
European allies and partners is this bifurcation of needs in 
the hospitals and sort of triaging pandemic patients and those 
with other issues. But, again, I will go back to the healthcare 
experts that I work with and see if they have picked up on any 
examples that are very specific to mental health.
    Mr. Trone. I would appreciate that. I am afraid it is 
getting left behind in many cases. The numbers are staggering, 
what is happening.
    Ambassador Froman, you were just speaking about supply 
chain. And what are the current barriers for better 
transatlantic coordination on supply chain?
    Mr. Froman. Thank you. Thank you, Congressman. I think 
there is now conversation going on about perhaps launching a 
trade negotiation around lowering barriers, trade barriers, 
tariffs on medical equipment. We have covered some of that. 
When we installed the information technology agreement, we 
covered some advanced medical equipment there. But there are 
still tariffs on a wide range of products going across the 
Atlantic, and now there is new attention paid to that.
    So I am hopeful that whether it is, again, done between the 
U.S. and the EU, or done more broadly at the WTO among some 
group of countries, if not all of them, that we can begin to 
eliminate barriers to trade in critical goods like that.
    Mr. Trone. Great.
    Mr. Froman. I would also say, just in response to 
Congresswoman Wild's point, I think the good news is there is a 
lot of cooperation going on between the U.S. and the EU and the 
scientific community. The scientists are dealing with each 
other. The Therapeutics Accelerator that we have launched with 
Gates and Wellcome have given grants in the U.K. and Belgium 
and elsewhere in Europe to do research, and we are hopeful that 
that kind of work does produce the vaccine, treatments, and 
diagnostics more quickly than we can do alone.
    Mr. Trone. All right. Thank you.
    Dr. Donfried, the Trump administration recently issued a 
rule requiring foreign national students to return home if 
their instruction is entirely, predominantly online. Could you 
comment why that may be detrimental to transatlantic 
relationships and our own pandemic recovery and our own 
national interest?
    Mr. Keating. If I could interrupt, Representative Trone.
    While we have been having this hearing, the U.S. has 
rescinded that requirement that foreign students taking online 
courses return home, so I will let you rephrase the question if 
you would like.
    Mr. Trone. Excellent. We appreciate that.
    Any opportunities--I am on the Ed and Labor Committee. Any 
opportunities to learn best practices on transatlantic 
cooperation in the area of our students and educators so they 
can be more successful in the next year or so while this 
pandemic continues? What can we take from Europe?
    Dr. Donfried. Well, first, I think that is great news, 
Chairman. Thank you for sharing it with us. There are lots of 
reasons why it is great that that was overturned, but obviously 
it very much benefits the United States to have the best and 
the brightest from other countries, including across Europe, 
studying here, and many of them staying here and contributing 
to the health and well-being of this country.
    In general, I think there are many things we can learn from 
Europe, but in the educational field, because Europe is now 
ahead of us in terms of managing this pandemic--and I do not 
have the most recent figures, but I have figures from late 
June--the Johns Hopkins University looks at the 7-day rolling 
average of newly confirmed COVID-19 cases, and in late June, 
across the 27 countries of the European Union, there were 3,832 
new cases as compared to 38,000 cases in the U.S.
    Because Europe is ahead of us, there are very helpful 
lessons we can learn from them about what has worked and what 
has not worked. That is true in the educational space. It is 
true in terms of children going back to school and how to 
manage that. It is also true in terms of the success they have 
had with testing and contact tracing to keep that COVID-19 
curve flattened. I think across all those areas, we should be 
looking to Europe to see what we can do better here.
    Thanks.
    Mr. Trone. Thank you, Doctor.
    Thank you, Mr. Chairman.
    Mr. Keating. Thank you, Representative.
    The chair recognizes Representative Costa from scenic 
California.
    Mr. Costa. Thank you very much, Mr. Chairman. I think we 
have got a good subcommittee hearing today and a productive 
conversation.
    Dr. Carafano, I do not think many of us disagree with the 
points you made earlier about the need for reform, not only 
with the World Health Organization, but the World Trade 
Organization, and a host of other organizations in which we are 
partners with the European allies of ours, whether it be a 
formal alliance with the Union or with NATO.
    However, I do not know how we do those things when we have 
a administration that, in my view, seems to be hostile in its 
approach toward participating in all of these efforts. I mean, 
withdrawal of the Paris accord, threats toward removing 
ourselves from NATO, notwithstanding the progress that I think 
we are making in NATO, and other seemingly lack of willingness 
to participate or to keep our allies informed as to our 
decisions, our movements, and the go-it-alone attitude.
    I mean, I think there is a lot of willingness. I am the 
chairman of the Transatlantic Legislators' Dialogue, have been 
involved for many years, the Transatlantic Policy Network that 
involves the private sector. We cannot make these reforms if we 
just walk away from the table.
    Dr. Carafano. Thank you, Congressman. I agree that, you 
know, dialog is part of the solution. My only point is we have 
to be realistic. There are countervailing pressures, 
particularly from China and Russia, which are working on 
agendas that do not support this, and the----
    Mr. Costa. But the----
    Mr. Carafano [continuing]. And the question is how do you 
accomplish reform.
    Mr. Costa. But you accomplish reform by sitting down and 
working together. Russia is our common adversary, going back to 
Azimov and even before with Putin. They have attempted to 
undermine Western democracies, longer in Europe, and now in our 
country as well. China is a competitor, not an ally.
    So, I mean, we still account for half the world's economy 
between the United States and Europe with the rules-based 
economy and adherence to it and shared values.
    Dr. Carafano. Sir, I would point, you know, to the example 
of WIPO, where the United States supported an alternative 
candidate to the Chinese candidate. The alternative candidate 
was elected. I think we have made great accomplishments there. 
So I do think it is a case-by-case strategy for an agency 
rather than just saying----
    Mr. Costa. Well, I disagree. I think that there has been a 
hostile attitude for the past 3 years. You cannot fix these 
problems that admittedly are problems unless you are willing to 
sit down and engage on the common solutions to fixing some of 
these organization that, in many cases, we helped create, you 
know, at the beginning.
    The--I want to--my time is running out here. To two of our 
other witnesses, Donfried and Ellehuus, given the nature of the 
comments you made, what role--and we were in conversations with 
them. We had a very robust activity, and members of this 
subcommittee have participated, the chair and many other 
members, in our regular meetings with the Transatlantic 
Legislators' Dialogue. But this COVID-19 has really put a 
constraint on our ability to try to act as that glue to 
maintain the partnerships.
    What suggestions might you have?
    Dr. Donfried. I completely understand the chill that COVID-
19 has put on in-person meetings, and I would be the first to 
agree that there is really no parallel substitute to an in-
person meeting, but I am actually amazed at how quickly all of 
us have adjusted to virtual settings. I would encourage you to 
continue convening as the TLD and bringing together those 
parliamentarians, albeit using virtual tools and maybe breaking 
into small groups to try to inculcate some of that relationship 
building that is so wonderful about an in-person meeting.
    I think the challenges of the pandemic increase the need 
for those conversations and suggest you need a quickened pace 
of those conversations because of the many problems.
    Mr. Costa. We have a meeting tomorrow, and we have got--we 
are trying to do it twice--once a month at least.
    Michael, before my time is up, Mr. Ambassador, it is always 
good to see you. What do you think the future prospects are
    [inaudible] With the rest of this year and whether or not 
we have a new administration vis--vis the EU and Brexit? You 
testify in all these sticky issues, so--agriculture, but I 
think it has to be on the table. I do not know if the chair 
will give me the time and let you answer the question.
    Mr. Froman. Well, look, I think----
    Mr. Keating. Go ahead.
    Mr. Froman [continuing]. The prospect of a U.S.-U.K. FTA is 
there. It should be easier than TTIP was to negotiate.
    On the other hand, the U.K. needs to sort out what its 
future alignment with the EU is going to be going forward, 
and----
    Mr. Costa. Well, that has not happened yet. They are still 
in problems with that as--I have been in----
    Mr. Froman. That is right. That is right. Yes. It is very 
difficult for them to negotiate an agreement until they know 
where they are going to exercise their discretion and where 
they are going to fall on Brussels on regulatory issues. I 
think that is the key next step.
    Mr. Costa. So we are really talking about 6 months or a 
year away?
    Mr. Froman. Yes. I think Ambassador Lighthizer has 
expressed skepticism that it would get done over the course of 
the remainder of the year.
    Mr. Costa. Yes. That was my conversation with him 2 weeks 
ago.
    Thank you very much, Mr. Chairman. And we will continue to 
work on all of the above.
    Mr. Keating. Thank you, Representative. I think things have 
to be much more in alignment with U.K., the EU, and certainly 
that is important to us as well.
    The chair recognizes Representative Sherman from 
California. Thank you.
    You might be muted, Mr. Sherman. You might be muted.
    Mr. Sherman. I--can I now be heard?
    Mr. Keating. You can be heard.
    Mr. Sherman. Great. Thank you for letting me participate in 
this subcommittee's hearing.
    We need to do more research on COVID. About a quarter of 1 
percent of the money we have provided for this crisis has gone 
to medical research. We have the capacity in that the 
organizations, the researchers are available since virtually 
all non-COVID medical research projects have been put on hold. 
This is the only way that we are going to deal with the 
trillions of dollars of harm that are done to the poorest 
countries in the world. I mean, I wish we could have a much 
larger foreign aid expenditure to help those countries, but I 
know that if we can do the medical research, that benefits the 
entire world.
    It is also critical for our image in the world, because, as 
Dr. Donfried has pointed out, we have not done as good a job as 
Europe, let alone other countries, in handling this pandemic. 
But if we can be the source of treatments and prophylaxis and 
vaccines, that will help rebuild our image.
    We have $5 billion in the HEROES Act--that, again, is about 
one quarter of 1 percent of that Act--for the kind of medical 
research that we need to do, and our standing in the world 
depends upon us doing all we can for research.
    Our alliance with Europe is based on values. You do not 
need to share values to have a successful alliance. Roosevelt 
and Stalin led the two most powerful nations in destroying Nazi 
Germany. But the relationship we have with Europe is based on 
values, and that enhances the alliance substantially. But we 
have pulled out of the Paris accord. We have a President who 
called NATO obsolete. He tried to take money from the Europe 
defense initiative and put it in building a wall.
    But more apropos to these hearings is this withdrawal from 
the WHO, which obviously has little or no support anywhere else 
in the world. The attack on the WHO has been on the theory that 
the WHO accepted what China had to say without investigating 
and verifying. Of course, the WHO has to rely upon the member 
States. It does not have the capacity to go around them.
    In contrast, the U.S. intel community, the most expensive 
and most sophisticated intelligence system ever devised, did 
know what was happening in Wuhan, China, and in January and 
February, we chose to ignore it. So you cannot blame the WHO 
for accepting what China had to say. You can blame us.
    So we have all of these things impacting our image in 
Europe, our ability to share values with Europe. The question 
is: What can the Foreign Affairs Committee of the U.S. Congress 
do over the next couple of years to rebuild America's image in 
Europe and our relationship with our traditional allies?
    I will turn to Ms. Donfried and anyone else who wishes to 
answer.
    Dr. Donfried. Thank you so much. You have hit on some 
really important points. Your comment about the need for more 
scientific research on COVID-19, which is important for our 
understanding of the disease but also obviously for our 
developing a vaccine, is certainly one important part of how 
the U.S. is viewed in the world.
    So many look to U.S. for leadership because of the ideals 
that undergird this country, but also the fact that we live by 
those ideals of openness and transparency.I was really struck 
when_I read recently a comment by China's chief virologist; she 
was saying that for China, if China is the first to develop 
this weapon_meaning vaccine--``if China is the first to develop 
this weapon with its own intellectual property rights, it will 
demonstrate not only the progress of Chinese science and 
technology, but also our image as a major power.''
    It is clear that China sees this race to a vaccine as a 
very important step in the way China is viewed globally. I do 
think, for the U.S., together with its allies, to be the ones 
who develop the vaccine will have an impact on how we are seen 
in the world. How we manage the COVID-19 pandemic gets to 
whether we are seen as competent.
    Mr. Sherman. I wanted to hear also from Ms. Ellehuus.
    Dr. Donfried. Sorry. Apologies.
    Mr. Keating. Go ahead.
    Mr. Sherman. If we could hear from her, if the chair will 
indulge me.
    Mr. Keating. Yes. Go ahead. Go ahead.
    Ms. Ellehuus. Thank you.
    I agree completely with what Karen said. I mean, it is 
going to take some time. These relationships will not be 
rebuilt overnight. Fortunately, to some extent, I think we can 
point to our actions, despite some of the rhetoric that has 
poisoned the relationship with allies and partners. So things 
like the European Deterrence Initiative, things like a 
continued U.S. forward presence in Europe, really matter in 
establishing the baseline credibilities with our allies and 
partners.
    Going forward, though, I do think we are going to have to 
sometimes subsume our own national interests to those of others 
and recognize that the collective interests might have to be 
put first. And I understand that is not always an easy choice, 
but if we want to rebuild these relationships, it is going to 
have to start from the bottom and allowing others to lead and 
trusting in that leadership.
    Mr. Sherman. Thank you.
    Mr. Keating. If you could--I am going to try and--I lost my 
video. If you have another question--I am going to try and shut 
it off and get back on. So, Representative, if you have another 
question, I am going to try to do that so I can close. I have 
to be on the screen.
    Could you do that, Representative Sherman?
    Mr. Sherman. What would you like me to do?
    Mr. Keating. Just ask another question. I am going to go 
off and then back on, because I have to be on the screen to 
close. And somehow my----
    Mr. Sherman. Okay. I thank you for the additional time.
    And I will ask Mr. Carafano. We have the Nord Stream 2 
pipeline. That will make Europe somewhat dependent upon natural 
gas supplies coming from Russia. Will Europe have the 
alternative infrastructure so that if they have a dispute with 
Russia, they can bring in natural gas, LNG facilities, or LNG 
from the Mediterranean, et cetera?
    Dr. Carafano. Well, thank you. I did want to make two quick 
points on your last question, because I do think it is worth 
remembering, one, that I think there is international consensus 
that there is a need for reform in the World Health 
Organization and, two, that the United States has not left the 
World Health Organization yet. We have a year.
    And if you are asking what can the committee do, the answer 
is really simple: Put on the table the reforms that are really 
needed, including reforms with international health 
regulations, and hold the WHO to that. And then you can also 
hold the Administration to that, those reforms.
    I do think there is a constructive way forward, and--but to 
your other point, I think, you know, we talked a lot about the 
Three Seas Initiatives. I am very encouraged by modest 
developments, for example, like the Croatian natural gas 
facility, and some of the other pipelines. There is a number of 
very small initiatives that can be enormously beneficial.
    So, for example, you can run a natural gas pipeline into 
Kosovo; that would be a very short run. It would be very 
inexpensive. It would enormously improve Kosovo's energy 
position. So I do think as the Nord Stream 2, there is enormous 
that can be done, and I think, as Michael pointed out, there is 
a lot of global money that is looking to invest. A lot of this 
can be done with private sector money, and it is--so there is a 
lot of opportunity there.
    Mr. Keating. Great. Thank you. Thank you. A good question. 
I am glad we had time for it, Representative.
    I think our questioning is over. I just want to thank our 
panel. It was a terrific panel.
    I want to make note of the fact that, for the panel and 
anyone else who is listening to this, we had 15 members onboard 
for this subcommittee hearing, which is an extraordinary 
number. I thinkit is a message of showing how interested our 
committee is and Congress is on improving our transatlantic 
relations, how we understand with the COVID-19 virus that, 
indeed, there are not many silver linings but one opportunity 
we have is to work closer with our transatlantic allies, 
because we have to. It is in our interest, it is in their 
interest, I think it is in a global interest to do that.
    We also will be returning back to Congress next week and we 
will be dealing with appropriations issues. And I think we will 
find out that the House will come forward with appropriations 
with strong investments on the international front in many 
areas. So I think that, again, that will be another strong 
signal of how important it is for us to be involved and that, 
indeed, the House, both Republicans and Democrats, have a 
strong commitment to global issues because we realize it is in 
our self-interest--security interest, economic interest, and, 
indeed, our healthcare interest, in terms of the values that we 
share.
    Representative Titus mentioned in the hearing that she 
would like to see us get involved more formally as a committee, 
weighing in on issues that she raised, with maybe the direction 
of USAID. Global broadcasting obviously an issue as well. And 
we plan to do that.
    So thank you for a very important hearing at a critical 
time for our country, for our European allies, and globally. We 
hope to keep working with you.
    With that, we will adjourn the meeting. Thank you again for 
all of your longstanding help in these areas. This meeting is 
adjourned.
    [Whereupon, at 3:09 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 
                                




                                 <all>
</pre></body></html>
